                                           AAAAAAAAAAAAAAAAA




              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report
Excessing of Computers Used for
Unclassified Controlled Information at
Lawrence Livermore National
Laboratory




DOE/IG-0759                                  March 2007
EXCESSING OF COMPUTERS USED FOR UNCLASSIFIED
CONTROLLED INFORMATION AT LAWRENCE LIVERMORE
NATIONAL LABORATORY

TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objectives      1

              Observations and Conclusions     2


              DETAILS OF FINDINGS

              Policy Implementation Delayed    3

              Excessing of Computers at LLNL   5


              RECOMMENDATIONS                  6


              MANAGEMENT COMMENTS              6


              INSPECTOR COMMENTS               6


              APPENDICES

              A. Scope and Methodology         7

              B. Management Comments           8

              C. Prior Reports                 9
Overview

INTRODUCTION     The Department of Energy’s (DOE’s) Lawrence Livermore
AND OBJECTIVES   National Laboratory (LLNL) is a research and development
                 institution that supports the core mission of national security. The
                 University of California manages and operates LLNL for the
                 National Nuclear Security Administration (NNSA).

                 DOE spends over $2 billion each year on information technology
                 and has a current inventory of approximately 800 information
                 systems, including up to 115,000 personal computers, many
                 powerful supercomputers, numerous servers, and a broad array of
                 related peripheral equipment. The unclassified computers and
                 electronic memory devices in these information technology systems
                 may contain “unclassified controlled information.” This term
                 includes unclassified controlled nuclear information, proprietary
                 information, export controlled information, official use only
                 information, and personally identifiable information, which can
                 include employee social security number, place of birth, and date of
                 birth.

                 DOE has long recognized the importance of protecting unclassified
                 controlled information stored on computers and other electronic
                 memory devices, particularly when this equipment is no longer needed
                 and becomes excess property. Excess property items, including
                 unclassified computers and other electronic memory devices, may be
                 transferred for reuse within DOE facilities or other governmental
                 agencies, donated for educational purposes, sold, or salvaged.

                 At LLNL, there are approximately 23,000 computers currently in
                 use, and approximately 5,300 computers are excessed each year.
                 To prevent the unauthorized dissemination of unclassified
                 controlled information, DOE policy requires that data stored on
                 computers and electronic memory devices must be properly
                 removed or physically destroyed before these devices are internally
                 transferred or released from a DOE-controlled environment. DOE
                 approved methods for removing and/or destroying data on memory
                 devices include: overwriting (often referred to as sanitizing and/or
                 clearing) the data a specific number of times; electronically
                 destroying the data on the memory devices by using a degaussing
                 machine; and physically pulverizing, incinerating, smelting, or
                 disintegrating the memory devices. Overwriting is the only
                 method that does not physically or electronically damage memory
                 devices, thus it allows a memory device to be reused.



Page 1                                            Excessing of Computers Used
                                                  for Unclassified Controlled
                                                  Information at Lawrence
                                                  Livermore National Laboratory
                   The objectives of this inspection were to determine if LLNL:
                   (1) excessed unclassified computers and other electronic memory
                   devices in accordance with applicable policies and procedures and
                   (2) had adequate internal controls in place to prevent the
                   unauthorized dissemination of unclassified controlled information.

OBSERVATIONS AND   We concluded that although LLNL was adhering to its own
CONCLUSIONS        policies and procedures regarding excessing of unclassified
                   computers and other electronic memory devices, LLNL’s policies,
                   procedures, and internal controls were not always consistent with
                   applicable DOE policies. Specifically, we found that:

                   •   NNSA delayed having LLNL implement Department policy on
                       clearing, sanitizing, and destroying memory devices for almost
                       2½ years after the policy was issued. Department directives on
                       the topic were issued in February 2004 and June 2005 and were
                       applicable to NNSA sites. However, instead of directing LLNL
                       to implement the directives, NNSA waited while its Office of the
                       Chief Information Officer (OCIO) drafted a policy letter to
                       provide LLNL and other NNSA sites with specific requirements
                       for clearing, sanitizing, and destroying unclassified controlled
                       information on computers and electronic memory devices.
                       NNSA did not issue the policy letter until August 2006. As of
                       March 1, 2007, LLNL was working on implementing the policy.

                   •   Due to the delay in implementing the DOE directives at LLNL,
                       the Laboratory did not establish certain site-wide procedures
                       and internal controls necessary to ensure the proper clearing,
                       sanitization, and destruction of memory devices. In particular,
                       LLNL did not ensure that during the excessing process all
                       equipment that potentially contained embedded memory
                       devices was examined to make certain that stored data was
                       properly removed; that computer hard drives reused on-site
                       were adequately overwritten; and that the overwriting of
                       memory devices was always properly documented in
                       accordance with Department policy.

                   Reviews by the Office of Inspector General at other DOE sites
                   have also identified weaknesses in the excessing of computers and
                   other electronic memory devices. A list of the associated reports is
                   found in Appendix C.




Page 2                                              Observations and Conclusions
Details of Findings

POLICY                We found that NNSA delayed having LLNL implement Department
IMPLEMENTATION        policy on clearing, sanitizing, and destroying memory devices for
DELAYED               almost 2½ years after the policy was issued. Department directives
                      on the topic were issued in February 2004 and June 2005 and were
                      applicable to NNSA sites. However, instead of directing LLNL to
                      implement the directives, NNSA waited while its OCIO drafted a
                      policy letter to provide LLNL and other NNSA sites with specific
                      requirements for clearing, sanitizing, and destroying unclassified
                      controlled information on computers and electronic memory
                      devices. NNSA did not issue the policy letter until August 2006.
                      As of March 1, 2007, according to Livermore Site Office (LSO)
                      officials, LLNL was working on implementing the policy.

                      In 2000, Congress enacted the National Nuclear Security
                      Administration Act (NNSA Act), which established NNSA as a
                      separately organized agency within DOE, with the NNSA
                      Administrator being responsible for overseeing the agency. As an
                      organizational element within DOE, NNSA is subject to a DOE
                      directive if either the Secretary or Deputy Secretary of Energy issues
                      the directive stating that it is applicable to NNSA. Additionally, under
                      the NNSA Act, the NNSA Administrator has the authority and
                      responsibility to develop policies and guidance for all organizations
                      within NNSA. NNSA has created a system of policy letters (referred
                      to as “NAPs”) as one of the methods used to implement DOE policies,
                      establish internal policies, and provide guidance to its elements.

                      In February 2004, DOE Notice 205.12, “Clearing, Sanitizing, and
                      Destroying Information System Storage Media, Memory Devices,
                      and Other Related Hardware,” was issued by the Deputy Secretary.
                      The Notice identified specific requirements for removing
                      unclassified controlled information from electronic memory
                      devices to prevent unauthorized dissemination of the information
                      when the devices were excessed and removed from a DOE-
                      controlled environment. The Notice specified that it was
                      applicable to NNSA, with a 90-day implementation period from
                      the date of the policy’s issuance.

                      In June 2005, DOE Manual 205.1-2, “Clearing, Sanitization, and
                      Destruction of Information System Storage Media, Memory Devices,
                      and Related Hardware Manual,” was issued to replace DOE Notice
                      205.12. The Manual was issued by the Secretary and identified
                      specific requirements for removing unclassified controlled
                      information from electronic memory devices prior to the devices
                      leaving a DOE-controlled environment. The Manual also was
                      applicable to NNSA and had a 90-day implementation period.



Page 3                                                               Details of Findings
         LSO officials told us that, after the Notice was issued, LSO was
         directed not to implement it locally because a NAP was being
         developed that would address the actions required by the Notice.
         LSO officials provided us with February 2004 and March 2004 e-
         mails to NNSA officials requesting guidance on implementing the
         Notice. In its e-mails, LSO indicated that it was trying to
         determine whether the Notice should be added to LLNL’s contract.
         A response from an NNSA Albuquerque Service Center official
         said that an official from NNSA’s OCIO stated at an “all fed”
         meeting on February 25, 2004, that no NNSA site should take
         action until the NNSA OCIO official directs it and to expect
         further guidance from the NNSA OCIO. A March 2004 e-mail
         from the NNSA OCIO official responding to one of the LSO
         queries stated that “It appears that we will need to issue another
         NAP to implement 205.12.” LSO officials told us that they must
         rely on directions from the NNSA OCIO in order to implement
         cyber security related Department policy at LLNL. Therefore,
         they said, they delayed implementing the Notice and the successor
         Manual into the LLNL management contract pending the release
         of the NAP by the NNSA OCIO.

         LSO officials said that it was not until February 2006 that NNSA
         finally instructed LSO to incorporate the Manual into the LLNL
         contract. The Manual was incorporated into the LLNL contract in
         July 2006. In August 2006, NNSA issued NAP-14.16, “Clearing,
         Sanitizing, and Destroying Information System Storage Media,
         Memory Devices, and Other Related Hardware.” Thus, there was
         a delay of almost 2½ years in NNSA directing the implementation
         of Department policy regarding clearing, sanitizing, and destroying
         information on memory devices. As of March 1, 2007, according
         to LSO officials, LLNL was working on implementing the policy.

         When asked about the delay, one NNSA OCIO official cited
         various issues, including resources, and acknowledged that
         authorization was not obtained to delay implementation of the
         Notice and the Manual. The NNSA OCIO official referred to above
         in the e-mails provided by LSO also cited issues such as resources
         as leading to the delay in issuing NAP-14.16. However, he said that
         he did not direct LSO to not implement the two directives locally
         and that ultimately it was the responsibility of LSO to implement
         Department policy into the LLNL management contract.

         We reviewed NAP-14.16 and noted that its requirements were very
         similar to those in the Manual. In addition, many of the LSO
         officials we interviewed during our inspection told us that in their



Page 4                                                  Details of Findings
                    opinions it would have been much simpler to implement the
                    Notice, and later the Manual, rather than wait for the NAP.

                    We contacted NNSA officials at other NNSA sites regarding their
                    implementation of the Manual and were provided information
                    indicating the Manual was implemented inconsistently throughout
                    the NNSA complex. For example, we were told that Sandia
                    National Laboratories and Los Alamos National Laboratory did not
                    implement the Manual within the designated 90-day period, but
                    that the Nevada Test Site and the Kansas City Plant did.

EXCESSING OF        We found that, due to the delay in implementing the DOE
COMPUTERS AT LLNL   directives at LLNL, the Laboratory did not establish certain site-
                    wide procedures and internal controls necessary to ensure the
                    proper clearing, sanitization, and destruction of memory devices.
                    As discussed below, LLNL did not ensure that during the
                    excessing process all equipment that potentially contained
                    embedded memory devices was examined to make certain that
                    stored data was properly removed; that computer hard drives
                    reused on-site were adequately overwritten; and that the
                    overwriting of memory devices was always properly documented
                    in accordance with Department policy.

Disposal of Other   DOE Manual 205.1-2 provides specific requirements for clearing,
Office Equipment    sanitizing, and destroying various types of memory devices that
                    may be embedded in electronic equipment, such as facsimile and
                    copier machines, prior to excessing the equipment. We determined
                    that, prior to excessing, LLNL did not always examine facsimile
                    and copier machines for possible embedded memory devices that
                    could retain scanned information. We also determined that LLNL
                    did not have specific policies and procedures comparable to those
                    in the Manual that identify different types of memory devices and
                    the specific methods and requirements for clearing, sanitizing, or
                    destroying these devices.

Internal Reuse of   DOE Manual 205.1-2 requires that computer hard drives
Computers           containing unclassified controlled information be overwritten three
                    times before being transferred to a new user within a DOE-
                    controlled environment. This procedure ensures that unclassified
                    controlled information, including personally identifiable
                    information, cannot be recovered from the hard drives by
                    individuals reusing the computers. We determined that many times
                    computer hard drives that may have been used to process
                    unclassified controlled information were only being overwritten one
                    time prior to being transferred to new users within LLNL.



Page 5                                                            Details of Findings
Documentation     DOE Manual 205.1-2 requires that, when memory devices are
Requirements      cleared and/or sanitized (e.g., overwritten) to remove unclassified
                  controlled information, detailed documentation must be maintained
                  that includes: the media serial number, make, and model; the
                  purpose for clearing or sanitizing; and the procedures used. We
                  were told by LLNL officials that many of the LLNL directorates
                  clear, sanitize, and/or remove hard drives from excess computers
                  prior to their being sent to LLNL’s excess property center and that
                  they had not documented the required information.

RECOMMENDATIONS   We recommend that the Administrator, NNSA:

                  1. Review the circumstances regarding the failure to implement DOE
                     Notice 205.12 and the delayed implementation of DOE Manual
                     205.1-2; then take appropriate action to ensure there is not a
                     recurrence of such a delay in implementing policy within NNSA.

                  2. Ensure that the requirements of DOE Manual 205.1-2 and
                     NAP-14.16 have been implemented throughout NNSA.

                  We recommend that the Manager, Livermore Site Office, ensures that:

                  3. All computers and other equipment with electronic memory
                     devices that contain or may contain unclassified controlled
                     information are cleared/sanitized in accordance with the
                     requirements in DOE Manual 205.1-2 and NAP-14.16 prior to
                     transfer to a new user within a DOE-controlled environment.

                  4. LLNL implements DOE Manual 205.1-2 and NAP-14.16
                     requirements pertaining to: (a) documentation of the clearing
                     and/or sanitization of unclassified controlled information
                     memory devices; and (b) the examination of electronic
                     equipment that potentially has embedded memory devices.

MANAGEMENT        In comments on a draft of this report, management did not
COMMENTS          specifically state whether it concurred with our recommendations;
                  however, management indicated that certain corrective actions
                  have been or will be initiated.

INSPECTOR         We will work with management to ensure appropriate resolution of
COMMENTS          our recommendations. Management’s comments are included in
                  their entirety at Appendix B.




Page 6                                                    Recommendations
                                         Management and Inspector Comments
Appendix A

SCOPE AND     The fieldwork for this inspection was conducted between April
METHODOLOGY   and June 2006. As part of this inspection, we interviewed NNSA,
              LSO, and LLNL officials, as well as LLNL employees involved in
              the excessing of computers and other equipment that utilizes
              electronic memory devices. We also reviewed DOE, NNSA, and
              LLNL policies, procedures, and records relating to the excessing of
              information technology equipment. Documents used in this review
              included:

              •   41 Code of Federal Regulations 102, “Federal Management
                  Regulations”;

              •   DOE Notice 205.12, “Clearing, Sanitizing, and Destroying
                  Information System Storage Media, Memory Devices, and
                  Other Related Hardware”;

              •   DOE Manual 205.1-2, “Clearing, Sanitization, and Destruction
                  of Information System Storage Media, Memory Devices, and
                  Related Hardware Manual”;

              •   National Nuclear Security Administration Act (Public Law
                  106-65); and

              •   NAP-14.16, “Clearing, Sanitizing, and Destroying Information
                  System Storage Media, Memory Devices, and Other Related
                  Hardware.”

              Pursuant to the requirements of the Government Performance and
              Results Act of 1993, we assessed the performance measures
              applicable to the excessing of computers used for unclassified
              controlled information at LLNL.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 7                                                Scope and Methodology
Appendix B




Page 8       Management Comments
Appendix C

PRIOR REPORTS   The following Office of Inspector General reports are related to the
                excessing of computers and other electronic memory devices.

                “Internal Controls for Excessing and Surplusing Unclassified
                Computers at Los Alamos National Laboratory” (DOE/IG-0734,
                July 2006). This report found that Los Alamos did not follow
                DOE directives and internal policies pertaining to excessing
                computers. As a result, an excessed computer with an intact,
                unsanitized hard drive was sold to the public. Further, the internal
                control failure relating to the excessing and surplusing of this
                computer raised concerns as to whether the hard drives for seven
                other computers excessed at the same time were sanitized and
                removed prior to the computers being sent to auction.

                “Destruction of Classified Hard Drives at Sandia National
                Laboratory-New Mexico” (DOE/IG-0735, August 2006). This
                report found that Sandia did not destroy classified computer hard
                drives in accordance with DOE directives. Sandia did not always
                maintain proper documentation, destroy hard drives on the same
                day they were removed from the site, obtain proper approval for
                off-site destruction of hard drives, and use appropriately cleared
                personnel for the destruction process.

                “Excessing of Computers Used for Unclassified Controlled
                Information at Idaho National Laboratory” (DOE/IG-0757). This
                report found that the Idaho National Laboratory (INL) did not have
                adequate policies and internal controls for excessing computers
                and other electronic memory devices to prevent the unauthorized
                dissemination of unclassified controlled information. INL did not
                always excess computers in accordance with applicable policies
                and procedures, and new Department policies on clearing,
                sanitizing, and destroying hard drives and other memory devices
                were not implemented at INL for approximately 16 months.




Page 9                                                               Prior Reports
                                                                    IG Report No. DOE/IG-0759

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
 and cost effective as possible. Therefore, this report will be available electronically through the
                                 Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page



  Your comments would be appreciated and can be provided on the Customer Response Folm
                                 attached to the report.
